Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
        Reporting OIG: Department of Transportation - OIG
    Reporting Period : Quarter 1, FY 2014 (October 1 - December 31, 2013)


                 Monetary Results ($)                        Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date        Cumulative Since Fiscal Year 2009

Recoveries                                                                  $1,299,608.00                                                                $1,299,608.00


Forfeitures/Seizures                                                         $750,000.00                                                                   $750,000.00


Estimated Savings                                                                     $0.00                                                                       $0.00


Questioned Costs                                                                      $0.00                                                                       $0.00


Unsupported Costs                                                                     $0.00                                                                       $0.00


Recommendations for Better Use of Funds                                               $0.00                                                                       $0.00



                    Work Products                            Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date             Cumulative Since 2009

Complaints Received                                                                    485                                                                          485


Whistleblower Reprisal Allegations


 Received                                                                               12                                       1                                   13


 Accepted                                                                               12                                                                           12


Investigations


 Active - Open and Underway                                                             55                                      50


 Convictions, Settlements, Judgments                                                     7                                                                               7


 ARRA $ Loss Associated with Convictions and Other
                                                                             $1,299,408.00                                                                $1,299,408.00
 Prosecutive Actions


Audits/Inspections/Evaluations/Reviews


 In Process - Initiated and Underway                                                     4                                       2


 Completed Final Published Work Products                                                29                                       1                                   30


 Completed Unpublished Work Products                                                     0                                                                               0


 Quality Control Reviews (QCRs) Issued                                                   0                                                                               0


Training/Outreach Sessions Provided                                                    486                                                                          486
Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
    Reporting OIG:

  Reporting Period Quarter 1, FY 2014 (October 1 - December 31, 2013)




      No.                             DETAILS OF SIGNIFICANT ACTIVITIES (Completed/On-Going During the Reporting Period)




       1



       2



       3



       4



       5



       6



       7



       8



       9



      10
